Platinum Rewards MasterCard® - Disclosure Summary
Important information about this Credit Card
Interest Rates and Interest Charges
Annual Percentage Rate
introductory APR for the first 6 Billing Cycles following Account opening.
(APR) for Purchases
After that, your APR will be from
to
This APR will vary based on the Prime Rate
and your creditworthiness.
APR for Balance
0.00% introductory APR for the first 6 Billing Cycles following Account opening.
Transfers
After that, your APR will be from 12.15% to 22.15%. This APR will vary based on the Prime Rate and
your creditworthiness.
APR for Cash Advances
15.15% to 25.15%, when you open your account, based on your creditworthiness.

0.00%

12.15% 22.15%.

Penalty APR

After that, your APR will vary with the market based on the Prime Rate and your creditworthiness.
None

How to Avoid Paying
Interest on Purchases

Your due date is at least 26 days after the close of each billing cycle. We will not charge you any
interest on purchases if you pay your entire balance by the due date each month.

Minimum Interest
Charge
For Credit Card Tips from
the Consumer Financial
Protection Bureau

Not applicable

Fees
Annual Fee
Transaction Fees
 Balance Transfer
 Cash Advance
 Foreign Transaction
Penalty Fees
 Late Payment
 Returned Payment

To learn more about factors to consider when applying for or using a credit card, visit the website of
the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

None
None
Either $5 or 3% of the amount of each cash advance, whichever is greater.
2% of each transaction in U.S. Dollars.
Up to $25*
Up to $35

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
How We Will Calculate Your Variable APR: Unless an introductory or promotional APR is in effect, we will add a “Margin” to an “Index
Rate” to determine your standard variable rate. The Index Rate will be equal to the U.S. Prime Rate (“Prime Rate”) in the Money Rates
section of The Wall Street Journal published on the last day of the previous calendar month before the Closing Date shown on your billing
statement. At account opening the APRs applicable to your account will be determined by our review of your credit report, information
you provide on your application, and other relevant information available to us. You may not qualify for the lowest APRs disclosed
above. Periodically while your account is open, we will reevaluate your creditworthiness and determine whether your Account should be
moved into a different pricing tier with a higher or lower Margin thereby increasing or reducing, respectively, your APR for Purchases,
Balance Transfers and Cash Advances.
* If your Total Minimum Payment Due is not received by your Payment Due Date, a Late Payment Fee of $25 will be assessed. However,
the Late Payment Fee will not exceed the total minimum payment that was due.
All account terms are governed by the Credit Card Agreement. Account and Agreement terms are not guaranteed for any period of time. In
accordance with the Agreement and applicable law, we may change them based on information in your credit report, market conditions,
business strategies, or for any reason. Refer to the Rewards Program Terms and Conditions for additional details on point accrual and
redemption at www.localfirstbank.com/Rewards.
07-2021

